                       U.S. SMALL BUSINESS ADMINISTRATION 

                           OFFICE OF INSPECTOR GENERAL

                               WASHINGTON, D.C. 20416



                                                                AUDIT REPORT
                                                         Issue Date: January 18, 2001
                                                         Number: 1-03



To:           Robert J. Moffitt
              Associate Administrator, Office of Surety Guarantees



From:         Robert G. Seabrooks
              Assistant Inspector General for Auditing

Subject:      Audit of Ranger Insurance Company

       Attached is the audit report on Ranger Insurance Company issued by Cotton & Company,
LLP. The report discusses the following issues: (1) SBA was not notified of adverse information
for two bonds, (2) recoveries and overpayments were not credited to SBA within the required
timeframe for one bond, and (3) incomplete underwriting documentation was maintained for two
bonds.
       You may release this report to the duly authorized representative of Ranger Insurance
Company. The findings included in this report are based on the auditors’ conclusions. The
findings and recommendations are subject to review, management decision, and corrective action
by your office in accordance with existing Agency procedures for audit follow-up and resolution.
Please provide us your proposed management decision for each recommendation on the attached
forms 1824, Recommended Action Sheet, within 80 days.
        This report may contain proprietary information subject to the provisions of 18 USC
1905. Therefore, you should not release this report to the public or another agency without
permission of the Office of Inspector General. Should you or your staff have any questions,
please contact Robert Hultberg, Business Development Programs Group at (202) 205-7577.


Attachments
                              INDEPENDENT ACCOUNTANT’S

                      REPORT ON THE PERFORMANCE AUDIT OF

                             RANGER INSURANCE COMPANY




Performed by:

Cotton & Company LLP
Certified Public Accountants
333 North Fairfax Street, Suite 401
Alexandria, Virginia 22314




                                         2

                                             July 28, 2000


U.S. Small Business Administration
Office of Inspector General


BACKGROUND

        The Small Business Investment Act of 1958, as amended, authorized the Small Business
Administration’s (SBA) Surety Bond Guarantee Program (SBG) to assist small, emerging, and minority
construction contractors. SBA indemnifies surety companies from potential losses by providing a
Government guarantee on bonds issued to such contractors. SBA guarantees up to 90 percent for
contracts not exceeding $1.25 million. SBA’s Office of Surety Guarantees (OSG) administers the SBG
program.

OBJECTIVE, SCOPE AND METHODOLOGY

        SBA’s Office of Inspector General (OIG) requested Cotton & Company LLP to conduct a
performance audit of Ranger Insurance Company, which is a prior approval surety. The primary
objectives were to determine if:

1. 	    Ranger complied with policies and procedures, including SBA’s policies and standards generally
        accepted by the surety industry, in issuing SBA guaranteed bonds.

2. 	    Claims and expenses submitted to SBA were allowable, allocable, and reasonable.

3. 	    Fees due SBA were accurately calculated and remitted in a timely manner.

         We obtained the universe of 42 bonds for which SBA had paid claims from October 1, 1996,
through September 30, 1999. We selected four of the bonds with the highest dollar claim amount for the
test period. In addition, we selected one bond to review at the request of OSG and one bond with claims
activity originally approved in the Fiscal Year (FY) 1999. Thus, our total sample size was 6 bonds with
claims (net of recoveries) totaling $[FOIA Ex. 4]. This represents 61 percent of the [EX. 4] total claim
payments (net of recoveries) per SBA’s Claim Payment History Reports.

        We tested sample bonds for compliance with SBA regulations for underwriting and fees by
reviewing underwriting files and Ranger’s accounting records. We tested claims incurred under sample
bonds from October 1, 1996, through September 30, 1999, by reviewing Ranger’s supporting
documentation in the claim files and accounting records. We obtained a list of all SBA-guaranteed final
bonds from October 1, 1996, through September 30, 1999, and identified contractors with total bonds

                                                   1

exceeding $1.25 million for contracts with the same obligee and bond issue dates within several months.
We then reviewed project descriptions to determine if the bonds were for a single project divided into
more than one contract.




                                                   2

       We conducted fieldwork during July 2000 at the offices of Ranger’s third-party servicing agent,
AMWEST Insurance Company, located in Calabasas, California. The audit was conducted in accordance
with Government Auditing Standards, 1994 Revision, except as described
below.

FOLLOW-UP ON PRIOR AUDITS

        The scope of our audit did not include following up on findings and recommendations from
previous audit reports.

AUDIT RESULTS AND RECOMMENDATIONS

        We noted that Ranger correctly calculated and remitted fees to SBA in a timely manner. We also
noted, however, that Ranger did not always comply with SBA’s regulations for underwriting bonds and
processing claims. Specifically, Ranger did not:

        •	      Notify SBA of adverse financial information for two bonds in a timely manner, as
                required by SBA regulations.

        •	      Remit or credit SBA for overpayments or its share of recoveries within the timeframe
                established in SBA regulations.

        •	      Maintain complete underwriting documentation for two of the six sample bonds.

        As a result, we questioned costs of $180,762.

        We concluded that management and financial controls were adequate to protect assets and
prevent errors and fraud. We also concluded however, that Ranger did not comply in all material aspects
with SBA regulations.

         We conducted an exit conference with AMWEST and Ranger personnel on July 28, 2000.
Ranger personnel generally agreed with factual aspects of the findings, and stated that they will review
their records in an attempt to locate additional support for some of the findings noted.

        Our findings and recommendations are discussed in detail below.

[FOIA Ex. 4]

        Ranger did not notify SBA in a timely manner of adverse financial information related to SBG
Nos. [FOIA Ex. 4]. These bond guarantees were approved [FOIA Ex. 4] respectively. Ranger received a
substantial number of nonpayment notices on these bonds dating back as early as September 24, 1997,
and continuing through September 1998, but did not provide SBA with any notice of this principal’s
deteriorating financial condition.

        Even with nonpayment notices on the two bonds, Ranger issued a third bond (SBG No. [FOIA
Ex. 4] on May 26, 1998. Several of the nonpayment notices were made in [FOIA Ex. 4] one month
before this third bond was executed. The same agent wrote all three of the bonds. The third bond went
into default on [FOIA Ex. 4] claims paid under this bond were $34,346.



                                                    1

        Ranger’s failure to notify SBA of the adverse information concerning [FOIA Ex. 4] financial
condition was a material misrepresentation of fact and a substantial regulatory violation that prevented
SBA from making an informed decision about whether to cancel the bonding line.

        Title 13, CFR 115.35, Claims for Reimbursement of Losses, defines events requiring notification
as follows:
                A Prior Approval Surety must notify OSG if the Surety has received any
                adverse information concerning the Principal’s financial condition or
                possible inability to complete the project or to pay laborers or
                suppliers….Notification must be made in writing at the earlier of the
                time the Surety applies for a guarantee on behalf of an affected principal,
                or within 30 days of the date the Surety acquired knowledge of, or
                should have acquired knowledge of, any of the listed events.

        Title 13, CFR 115.33, Surety Bonding Line, states:

                Upon the receipt of any adverse information concerning the Principal,
                the surety must promptly notify SBA, and SBA may cancel the bonding
                line.

        Finally, in accordance with Title 13, CFR 115.19, Denial of Liability, SBA is not liable under a
bond if a material misrepresentation of fact or a substantial regulatory violation existed. A material
misrepresentation includes both the making of an untrue statement of material fact and the omission of a
statement of material fact.

       We also noted that Ranger’s files did not include a copy of the bonded contract for SBG No.
[FOIA Ex. 4].

         Title 13, CFR 115.21, Audits and Investigations, requires a surety to maintain all documentation
for the term of each bond, plus any additional time required to settle any claims for reimbursement from
SBA and to attempt salvage or other recovery, plus an additional 3 years.

        Recommendations: We recommend that the OSG Associate Administrator:

1. 	    Deny liability for all claims paid under SBG No. [FOIA Ex. 4] and require Ranger to reimburse
        SBA the $34,346 paid to date in claims.

2. 	    Advise Ranger to comply with written policies and procedures that include the requirements of
        13 CFR 115.33 and 13 CFR 115.35 to ensure that SBA is given timely notification of any
        adverse information as required by federal regulations.

3. 	    Advise Ranger to comply with written policies and procedures to ensure that all remaining
        underwriting records are retained until the applicable statute of limitations has expired.
        Ranger Response: In its response to the audit report (appendix) Ranger stated that:

                1. 	 Ranger Insurance respectfully disagrees with the evaluation as
                     presented in the audit report. A review of the underwriting file
                     reflects a financially stable Principal for the period in question who
                     came to Ranger as a SBA 8A pre-qualified contractor.


                                                     2

                    We have prepared for your review a chronology of events on all
                    three bonds above mentioned. The decision to declare an account
                    “in claim” and therefore subject to reporting as such to the SBA is a
                    very subjective call based on the unique facts of any given situation.
                    This is not a decision taken lightly by responsible members of the
                    surety community. Prior to declaring a Principal “in claim” or “in
                    default”, the surety must be careful and mindful of the possible
                    negative impact on the ability of the Principal to continue in
                    business. This negative impact includes the fact that the SBA has a
                    policy of cutting off the bond credit of a Principal declared to be
                    “claim” or “in default”.

                    Ranger submits that the evidence in the file (copies attached) and the
                    chronology provided with this response supports the conclusion that
                    the Principal was capable of dealing with his own problems up to the
                    date of 9/15/98.

                    Ranger submits that this contractor was not “in claim” or in
                    “default” when the third bond was underwritten nor was there
                    significant adverse information to warrant placing the Principal into
                    claim.

                2. 	 Ranger’s third party Claims Administrator [FOIA Ex. 4] has
                     procedures in place to timely notify the SBA of adverse information
                     and default. [FOIA Ex. 4] has been instructed by Ranger to ensure
                     compliance with federal regulations. As stated in Audit Response 1,
                     it is Ranger’s position that federal regulations were not violated in
                     this case.

                3. 	 Ranger’s third party Claims Administrator [FOIA Ex. 4] has
                     procedures in place to retain all remaining underwriting records until
                     the applicable statute of limitations has expired. [FOIA Ex. 4] has
                     been instructed by Ranger to ensure compliance with federal
                     regulations.

         Cotton & Company Response: Ranger states in its response that the decision to declare an
account “in claim” and therefore subject to reporting to the SBA is a very subjective call based on the
unique facts of any given situation. Title 13, CFR 115.35 states that the surety must notify OSG if the
Surety has received any adverse information concerning the Principal’s financial condition or possible
inability to complete the project or to pay laborers or suppliers. Ranger’s policy of only reporting
accounts that are in “claim” or “default” is in violation of SBA regulations and prevents SBA from
making an informed decision about the financial condition of a Principal.

[FOIA Ex. 4]

        Ranger did not reimburse SBA for a duplicate payment and two recoveries totaling $146,416.
Ranger received a $110,406 claim reimbursement from SBA on July 7, 1998. It submitted a second
claim payment request for $114,890, which included the $110,406 already paid by SBA. SBA paid the
second claim amount of $114,890 in total on December 1, 1998. Ranger had not returned this duplicate
payment to SBA as of the audit date.
                                                    3

        In addition, Ranger received two recoveries for $16,300 on March 27, 1998, and $34,781 on July
29, 1998. Subsequent expenses reduced the total amount to a net recovery of $40,011. Ranger had not
reimbursed SBA $36,010 for its share of the recoveries.

       Title 13, CFR 115.16, Determination of Surety’s Loss, defines loss as:

               Amounts actually paid by the surety which are specifically allocable to
               the investigation, adjustment, negotiation, compromise, settlement of, or
               resistance to a claim for loss resulting from the breach of the terms of the
               bonded contract.

       Further, Title 13, CFR 115.17, Minimization of Surety’s Loss, states:

               The surety must reimburse or credit SBA (in the same proportion as
               SBA’s share of loss) within 90 days of receipt of any recovery by the
               Surety.

       Recommendations: We recommend that the OSG Associate Administrator:

1. 	   Require Ranger to reimburse questioned costs of $146,416.

2. 	   Advise Ranger to revise its written policies and procedures to ensure that it reimburses or credits
       SBA within 90 days of receipt of any recovery as required by federal regulations.

       Ranger Response: In its response to the audit report (appendix) Ranger stated that:

               1. 	 Ranger concurs with this finding. Ranger has already returned
                    $142,236.25 to SBA on 8/25/00 per attached Form 994 and copy of
                    check issued. Upon delivery of above non-compliance with federal
                    regulation and notification of Ranger by Cotton & Company LLP,
                    Ranger immediately refunded the overpayment to the SBA.

                   Internal investigation of the failure to follow the regulations disclosed
                   that Ranger’s Accounting staff was improperly offsetting the credit
                   balance due SBA on this particular claim against other receivable
                   balances due from SBA. It should be noted that this practice is very
                   common and within accepted industry standards in commercial
                   reinsurance transactions (offset clause).

               2. 	 Ranger has advised it’s Accounting staff and financial management
                    to process all credits due SBA at a claim level and not to offset
                    credit balances against other receivables due from SBA. In the
                    future all credits due SBA will be processed within 90 days of
                    recovery as required by federal regulations.

        Cotton & Company Response: Ranger’s response indicated that it “advised” its personnel to
process all credits due SBA as required. We recommend that Ranger revise its written policies and
procedures to include this requirement.



                                                    4

[FOIA Ex. 4]

        Ranger did not maintain SBA underwriting form Nos. 912, 994, 1261, and 1624, as required.
Further, Ranger does not have written policies and procedures to ensure compliance with record retention
requirements. Although Ranger no longer underwrites SBA-backed surety bonds; it must be able to
provide critical underwriting documents that may be necessary to settle existing claims or to defend or
enhance any litigation actions against either indemnitors, obligees, or other claimants.

         Title 13, CFR 115.21, Audits and Investigations, requires a surety to maintain all documentation
for the term of each bond, plus any additional time required to settle any claims for reimbursement from
SBA and to attempt salvage or other recovery, plus an additional 3 years.

         Ranger Response: In its response to the audit report (appendix) Ranger stated that it was the
policy of its contract surety to allow the producing agent to retain copies of all SBA forms. Ranger
stated that it has written policies and procedures in place to ensure that all underwriting documents are
retained until the applicable statue of limitations has expired. Ranger also stated that those procedures
have been sent to its Third Party Administrator, [FOIA Ex. 4].

        Cotton & Company Response: As previously noted on page 3, we recommend that Ranger
comply with written policies and procedures to ensure that all underwriting records are retained until the
applicable statute of limitations has expired.

SBA MANAGEMENT’S RESPONSE

        The Associate Administrator, Office of Surety Guarantees, stated he had reviewed the draft audit
report and agreed with the auditor’s recommendations. He also stated that his office would implement
these recommendations upon completion of our audit, as appropriate.




                                                     5

                                                                                 ATTACHMENT


                                            SAMPLE BONDS


                                     Ranger                                   Bond           Bond
Sample      Surety Bond             Insurance                                Approval       Default
  No.     Guarantee Number          Bond No.             Contractor Name       Date          Date

  1      [FOIA Ex. 4]             [FOIA Ex. 4]    [FOIA Ex. 4]             [FOIA Ex. 4]   [FOIA Ex. 4]

  2      [FOIA Ex. 4]             [FOIA Ex. 4]    [FOIA Ex. 4]             [FOIA Ex. 4]   [FOIA Ex. 4]

  3      [FOIA Ex. 4]             [FOIA Ex. 4]    [FOIA Ex. 4]             [FOIA Ex. 4]   [FOIA Ex. 4]

  4      [FOIA Ex. 4]             [FOIA Ex. 4]    [FOIA Ex. 4]             [FOIA Ex. 4]   [FOIA Ex. 4]

  5      [FOIA Ex. 4]             [FOIA Ex. 4]    [FOIA Ex. 4]             [FOIA Ex. 4]   [FOIA Ex. 4]

  6      [FOIA Ex. 4]             [FOIA Ex. 4]    [FOIA Ex. 4]             [FOIA Ex. 4]   [FOIA Ex. 4]

  * Sample bond selected for underwriting review only.




                                                     6

          APPENDIX 


 RANGER INSURANCE COMPANY

RESPONSE TO THE DRAFT REPORT

2   

3   

4   

5   

                                                 REPORT DISTRIBUTION 


Recipient                                                                                                   No. of Copies


Associate Deputy Administrator for Capital Access .................................................1 


General Counsel.........................................................................................................2 


Office of the Chief Financial Officer

Attention: Jeff Brown ...............................................................................................1 

